<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF PAUL J. MCNULTY, OF VIRGINIA, TO BE DEPUTY ATTORNEY GENERAL, DEPARTMENT OF JUSTICE</title>
<body><pre>[Senate Hearing 109-722]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-722
 
CONFIRMATION HEARING ON THE NOMINATION OF PAUL J. MCNULTY, OF VIRGINIA, 
          TO BE DEPUTY ATTORNEY GENERAL, DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2006

                               __________

                          Serial No. J-109-125

                               __________

         Printed for the use of the Committee on the Judiciary





                    U.S. GOVERNMENT PRINTING OFFICE

31-446 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     4
    prepared statement...........................................   112
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     5
    prepared statement...........................................   115
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               PRESENTERS

Allen, Hon. George, a U.S. Senator from the State of Virginia 
  presenting Paul J. McNulty, of Virginia, Nominee to be Deputy 
  Attorney General, Department of Justice........................     1
Warner, Hon. John, a U.S. Senator from the State of Virginia, 
  presenting Paul J. McNulty, of Virginia, Nominee to be Deputy 
  Attorney General, Department of Justice........................     3

                        STATEMENT OF THE NOMINEE

McNulty, Paul J., of Virginia, Nominee to be Deputy Attorney 
  General, Department of Justice.................................     7
    Questionnaire................................................     9

                         QUESTIONS AND ANSWERS

Responses of Paul J. McNulty to questions submitted by Senators 
  Grassley, Sessions, Leahy, Kennedy, Kohl, Feingold, Schumer, 
  and Durbin.....................................................    54
Responses of Paul J. McNulty to follow-up questions submitted by 
  Senator Durbin.................................................   105

                       SUBMISSION FOR THE RECORD

Canterbury, Chuck, National President, Fraternal Order of Police, 
  Washington, D.C., letter.......................................   111


   NOMINATION OF PAUL J. MCNULTY, OF VIRGINIA, TO BE DEPUTY ATTORNEY 
                     GENERAL, DEPARTMENT OF JUSTICE

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, DeWine, Sessions, Leahy, 
Kennedy, Schumer, and Durbin.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. The Judiciary Committee will now proceed 
with the hearing for the nomination of Paul J. McNulty, to be 
Deputy Attorney General for the Department of Justice.
    We have waited just a few moments here for Senator Warner, 
who had been on the premises. But it is five after, so we have 
Senator George Allen, our distinguished colleague, with us.
    So let us proceed with your introduction, Senator Allen.

PRESENTATION OF PAUL J. MCNULTY, NOMINEE TO BE DEPUTY ATTORNEY 
 GENERAL, DEPARTMENT OF JUSTICE, BY HON. GEORGE ALLEN, A U.S. 
               SENATOR FROM THE STATE OF VIRGINIA

    Senator Allen. Thank you, Mr. Chairman and members of the 
Committee. I thank you for the opportunity to appear before 
this Committee to relate to you and tell you about my friend, 
Paul McNulty. He is here today with his wife, Brenda, and two 
of their four children, Annie and Corey. Their two oldest 
children are in college. One is a freshman--Joe is a freshman 
at James Madison University, over in the Shenandoah Valley of 
Virginia.
    Let me just say one thing personally before I get into the 
attributes about Paul McNulty. In the midst of preparing for 
this trial, or this hearing, his mother passed away and they 
had the funeral earlier this week. Today would actually be her 
82nd birthday. Our thoughts and prayers are with Paul, and we 
know that his mother is looking down, joining her husband who 
passed away a few years ago, and looking down with pride on 
their son, Paul, and his opportunity to continue to serve this 
country.
    I have known Paul since the days I was Governor. One of the 
key things we tried to do, and successfully did in Virginia was 
abolish the lenient, dishonest parole system and institute 
truth in sentencing. Paul McNulty was one who I counted on as a 
very loyal, expert, knowledgeable adviser. And thanks to those 
reforms we made in Virginia, Virginia is safer.
    Back in 2001, my colleague, Senator Warner, who will be 
here undoubtedly, we had the honor of recommending to President 
Bush the nomination of Paul McNulty to be U.S. Attorney for the 
Eastern District of Virginia. The Senate confirmed Paul McNulty 
on September 14, 2001, just after we were attacked by the 
terrorists. The U.S. Attorney's office in the Eastern District 
of Virginia has played a central role in the war on terrorism 
ever since.
    Now, there is not time to talk about all the different 
important terrorism cases that Paul has been involved in and 
has prosecuted since he has been in office, but let me relate 
to the Committee two of these cases that Paul has overseen 
personally during his time as U.S. Attorney.
    First, of course, is the case of Zacarias Moussaoui. I know 
that the Chairman joined me in saying let's make sure that the 
families could somehow view those proceedings since the 
victims' families are all over the country. Paul was engaged in 
this effort in unprecedented victim outreach in connection with 
that case.
    Over the years since Moussaoui was indicted, Paul's office 
has interviewed over 2,000 victims and maintained regular 
contact with more than 5,000 victims or family members. This 
effort, I think, demonstrates Paul's compassion for the victims 
of crime and his long-standing commitment to victims rights.
    Also, last November, Paul's office obtained a conviction of 
Ahmed Omar Abu Ali, an American citizen who joined an al Qaeda 
cell. Abu Ali had plotted to assassinate the President and 
hijack airplanes. As Paul has said, the evidence presented 
during that trial proved that Abu Ali was a, quote, ``dangerous 
terrorist who posed a grave threat to our national security.'' 
The sentencing hearing will be later on this month, but Abu Ali 
faces a minimum sentence of 20 years for this crime.
    Under Paul's leadership, the U.S. Attorney's office in the 
Eastern District of Virginia has accomplished a great deal in 
traditional law enforcement areas, working with localities in 
the State combatting gangs. The Eastern District of Virginia 
led the Nation in the prosecution of gun crime for the past 3 
years, it lead the Mid-Atlantic region in drug trafficking 
prosecutions, and also dismanted a high-tech piracy group that 
operated servers around the world distributing millions of 
dollars worth of illegal software and movies.
    Paul has accomplished these things by promoting a series of 
initiatives, and what I think was very important, drawing upon 
the resources of other Federal agencies, as well as developing 
close working partnerships with State and local law 
enforcement.
    I am pleased, Mr. Chairman, to say to you that I think that 
the President has chosen very well in nominating someone with a 
strong background in prosecuting terrorism for this important 
position as Deputy Attorney General. Paul will be a thoughtful, 
knowledgeable, decent, caring, excellent addition to the 
Department of Justice as we continue to fight the global war on 
terror and keep Americans safe.
    I hope, Mr. Chairman, that you all have a good hearing, and 
I respectfully urge you all to move as quickly as possible. 
Paul McNulty has my very strongest recommendation for this 
position.
    I thank you so much for allowing me to be here, and now I 
am joined--as I said, he would be here directly and here he is, 
the senior Senator from Virginia.
    Chairman Specter. Thank you very much, Senator Allen. We 
knew that Senator Warner was on the premises and we waited to 
accorded him the status as senior Senator. We later heard that 
he had commitments in the Intelligence Committee. So we welcome 
you here, Senator Warner, and look forward to your testimony.

PRESENTATION OF PAUL J. MCNULTY, NOMINEE TO BE DEPUTY ATTORNEY 
  GENERAL, DEPARTMENT OF JUSTICE, BY HON. JOHN WARNER, A U.S. 
               SENATOR FROM THE STATE OF VIRGINIA

    Senator Warner. Let the record show I was here at precisely 
9:28 this morning.
    Mr. Chairman, I have listened to my distinguished friend 
and colleague here give a very comprehensive statement. I will 
just ask unanimous consent to place my statement in the record.
    Chairman Specter. Without objection, it will be made a part 
of the record.
    Senator Warner. Mr. Chairman, you and I came up through the 
prosecutorial ranks of the various departments that we have 
served in, in the Justice Department, and as I look on this 
distinguished public servant's career, it is really 
extraordinary. He has had the background and the experience to 
take on the challenging tasks in the Department of Justice to 
which our President has appointed him. He has my whole-hearted 
support. I assure this Committee that he will fulfill, and even 
exceed the expectations that all of us have as to his 
capability, knowledge of the law, respect for fairness and 
equality of justice for all.
    So with that, Mr. Chairman and distinguished ranking 
member, Mr. Kennedy, I will put in my statement and you can get 
on with your hearing.
    Chairman Specter. Thank you very much for being with us 
Senator Warner, Senator Allen. Mr. McNulty is a Virginian at 
the moment. He is also a Pennsylvanian. He was born and raised 
in Pennsylvania, and if he were being presented to the Armed 
Services Committee, I might be presenting him instead of 
Senator Warner and Senator Allen.
    Senator Allen. Notwithstanding that background, we did 
endorse him for being U.S. Attorney for the Eastern District of 
Virginia. He had a breadth of experience.
    Chairman Specter. Your endorsements are very amendable.
    Senator Warner. Mr. Chairman, Senator Allen and I have been 
working with the White House and the Department of Justice on 
the successor. 29 individuals came forward to apply for this 
position, partially because of the extraordinary heritage that 
this distinguished gentleman left in that office. Hopefully, we 
will be making that announcement together with the President 
soon as to his successor. I thank you.
    Chairman Specter. Thank you very much, Senator Warner. 
Thank you very much, Senator Allen.
    Paul McNulty comes to the proceedings today with an 
outstanding record, a graduate of Grove City College, 1980, 
Capital University Law School in 1983. Extensive experience as 
a prosecutor, has been the United States Attorney since 2001, 
and before that was the Principal Associate Deputy Attorney 
General, was Chief Counsel to the Office of Majority Leader of 
the House of Representatives. He is an adjunct professor from 
Grover City College. I will ask without objection that his 
extensive biographical material be made a part of the record. 
The position of Deputy Attorney General is one of enormous 
importance, as the administrative officer right behind the 
Attorney General on the Department of Justice, which has so 
many, many responsibilities.
    Before swearing in, Mr. McNulty, let me ask Senator Kennedy 
if he has any opening comments.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you, Mr. Chairman. I know we are 
going to be joined by Senator Leahy in just a few moments. If I 
could just take a moment to welcome Mr. McNulty.
    I understand you served on the Legal Service Program, and 
you also received the O'Neill award, as a student. If that is 
after Tip O'Neill, I would be interested in the reach of that 
award.
    I would like to put my full statement in the record.
    I think you are very much aware of the issues about the 
extent of Executive power and authority that is part of the 
national debate and discussion at the present time. You are 
going to be in a very important position on advising on the 
legality and the justification for that kind of authority, the 
whole range of accountability on prosecutions in the CIA, I am 
interested in how you dealt with those individuals. The 
President has spoken of accountability, and a number of these 
individuals that have been turned over from the CIA to your 
shop for processing and for prosecution. I want to hear you on 
this issue because this is enormously important for obvious 
reasons.
    The range of civil rights issues--what the Department has 
been doing, what it has not been doing, the selection of 
various individuals in the Civil Rights Division, particularly 
the provisions of the Voting Rights Act, the cases that were 
brought and not brought. The areas of immigration, the 
difficulty and the complexity that we are finding now, that has 
raised enormous kinds of challenges since the procedures were 
changed by the Attorney General, and that raised concerns as to 
the fairness and integrity of this process. These are just some 
of the very important areas that you will have, and do have, 
and have had important responsibilities for, and we are looking 
forward to hearing you out on some of these issues.
    I will put my full statement in the record and look forward 
to the question and answer period.
    I thank the Chair. I ask that the full statement be put in 
the record.
    Chairman Specter. Thank you, Senator Kennedy. Your full 
statement will be made a part of the record.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Chairman Specter. I now yield to the distinguished ranking 
member, Senator Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I apologize for the 
delay, but I have been working, as you know, along with Senator 
Durbin and others on the PATRIOT Act.
    As has already been said, of course, this is for the No. 2 
position. The previous deputies, James Comey and Larry 
Thompson, had extensive experience as prosecutors. When Tim 
Flanagan was proposed for this, I questioned the fact that he 
did not have experience. I am worried that neither the current 
Attorney General, nor the Associate Attorney General, nor the 
Assistant Attorney General chosen to head the Criminal 
Division, nor the Solicitor General, had real experience as a 
prosecutor before going to the top law enforcement office in 
the country.
    The President withdrew Mr. Flanagan's nomination. Of 
course, anyone who reads the papers still sees the questions 
regarding that nomination. I joined Senator Durbin in a letter 
yesterday to the Attorney General about the role that Mr. 
Flanagan's dealings with Jack Abramoff and David Safavian 
played in that decision. We will see whether I get a response 
back. The Justice Department rarely responds to my letters, 
notwithstanding their Attorney General's pledge under oath at 
his confirmation hearings to be more responsive.
    Mr. McNulty does come to us as the Acting Deputy Attorney 
General and a U.S. Attorney for the Eastern District of 
Virginia, so he has had supervisory experience with criminal 
matters. I am not sure how many cases he has personally 
prosecuted, but I think as Deputy Attorney General, 
prosecutorial experience and prosecutorial judgment is going to 
be sorely tested. There are a lot of very delicate 
investigations that you have to oversee, and prosecutorial 
experience will be beneficial, may be critical, and the reason 
I keep mentioning this, Mr. McNulty, is that nobody else has 
prosecutorial experience. You have had supervisory 
prosecutorial experience, and that is a plus. We would like to 
see more, especially when the President has such an expansive 
view of his power, and the Justice Department is the only place 
left that might serve as a check if that power is being used 
illegally.
    The most recent Deputy Attorney General, James Comey, a 
respected prosecutor and a long-time Republican, seemed to many 
to have taken that position very seriously, and he appointed a 
committed, independent prosecutor to carry out investigations 
within the Bush administration. He questioned the President's 
authority to conduct warrantless wiretapping. He defended 
career attorneys who sought to put the brakes on over expansive 
assertions of Executive power. He refused to be a ``yes'' man, 
and of course, he got pushed out of the Department. 
Unfortunately, the position of Deputy is one where you are 
supposed to be willing to speak truth to power and not be a 
``yes'' man. In fact, that is why I voted against the current 
Attorney General, because I felt that he would not be willing 
to say no to anything from the White House.
    I know the importance of that. Ultimately the Attorney 
General's duty is to uphold the Constitution and the rule of 
law, and not labor to circumvent it. Both the President and the 
Nation are best served by an Attorney General who gives sound 
legal advice and takes responsible action without regard to 
political considerations, not one who develops legalistic 
loopholes to serve the ends of a particular President or 
administration. That holds true for the Deputy Attorney 
General, and that holds true whether it is a Democratic or 
Republican administration.
    We see the extraordinary rendition of prisoners to the 
``black site'' prisons in the former Soviet Union, something 
that every President, Republican and Democrat, had condemned 
before this administration. Now we are doing it. We saw the 
scandal of Abu Ghraib. We saw the withdrawn torture memo, and 
we saw the outgoing Justice of the Supreme Court remind us all 
very forcefully that nobody is above the law, not even this 
President, not even at a time of war.
    I first met Mr. McNulty while he was serving as staff for 
Republicans on the House Judiciary Committee. I remember you as 
an extraordinarily hard-working person, and I suspect you still 
are. I would hope that you would be able to follow Mr. Comey's 
example of independence and the example of other Republicans 
like Elliot Richardson and William Ruckelshaus, who left rather 
than violate their principles and the law.
    The Eastern District has been the go-to district for 
terrorism prosecutions, national security issues, and detainee 
abuse allegations. I think we need to understand how much you 
would be willing, even under those circumstances, to question 
any assertions of presidential power and look out for the 
individual liberties of ordinary Americans and protecting the 
law.
    According to a recent letter from the Department of Justice 
to Senator Durbin, since the beginning of the war in 
Afghanistan in 2001, 20 allegations of detainee abuse by 
American civilians, 20, have been referred to the Department of 
Justice. All but one of these cases have been assigned to your 
district with a task force under your supervision. Only one of 
these allegations has resulted in an indictment, and that one, 
incidentally, was the one sent to a different district than 
yours. These have hurt American credibility in the world. The 
press reports say these referrals include one case in which a 
detainee was killed in CIA custody within 45 minutes of the 
beginning of interrogation, and the CIA's own Inspector General 
found the possibility of criminality.
    It has been 18 months since the creation of the task force 
to investigate these. I want to know why, when the military has 
prosecuted detainee abuse cases--and the Eastern District of 
North Carolina has returned the one indictment so far--nothing 
has come out from your task force.
    I want to know about the President's warrantless domestic 
spying program, how you have responded to this. We all want to 
help stop terrorists. I helped write and pass the USA PATRIOT 
Act. I am working on ways to get it re-authorized, but we have 
to have some honest answers if we are going to be able to do 
that, and if it is going to have credibility so the American 
people can trust it.
    Mr. Chairman, I went over my time, but I appreciate your 
consideration allowing that.
    Chairman Specter. Thank you very much, Senator Leahy.
    Mr. McNulty, if you would now stand for the administration 
of the oath.
    Do you solemnly swear that the testimony that you will give 
before this Judiciary Committee will be the truth, the whole 
truth and nothing but the truth, so help you God?
    Mr. McNulty. I do.
    Chairman Specter. Thank you. Mr. McNulty, let us begin with 
the introduction of your family. I see some beautiful people 
sitting behind you. I infer they are your family. We do not 
ordinarily have people of that beauty here, so if you would 
introduce your family, we would appreciate it.
    [Laughter.]
    Mr. McNulty. Thank you very much, Mr. Chairman, and Senator 
Leahy, Senator Kennedy, Senator Durbin, for welcoming me here 
today.
    I am very pleased to introduce my family to you. My wife 
Brenda of nearly 25 years is here with me today, and two of my 
four children. As Senator Allen said, two of my children are in 
college. We thought it best to leave them there. My daughter 
Annie and my daughter Corrie are here, and my niece, Carrie 
Quinn, is here as well, as well as a number of good friends 
that have made the effort to be with me today in this room.
    Thank you very much for giving me the opportunity to 
introduce them.
    Chairman Specter. Thank you, Mr. McNulty. We would be 
pleased to hear any opening statement you care to make.

STATEMENT OF PAUL J. MCNULTY, OF VIRGINIA, NOMINEE TO BE DEPUTY 
            ATTORNEY GENERAL, DEPARTMENT OF JUSTICE

    Mr. McNulty. Thank you, Senator. I only want to make a 
couple brief points, and allow you to ask your important 
questions to me.
    Mr. Chairman, in my view, there is no finer agency of 
Government, perhaps anywhere n the world, than the Department 
of Justice. When yo consider the mission of the Department of 
Justice, the importance of what the Justice Department is 
responsible for doing in protecting people's liberties and 
enforcing law, when you consider the men and women of the 
Department of Justice and the broad range of talents, the 
skill, the courage, the dedication that they have, when you 
consider the commitment to the highest professional standard 
that DOJ stand for and has stood for for decades, it really is 
an extraordinary agency of Government. And, again, there may be 
nothing like it in all the world.
    In particular, over the pst 4 years, I have had the 
privilege of leading about 250 men and women who are part of 
the Department of Justice in the United States Attorney's 
Office in the Eastern District of Virginia. And of all those 
100,000 plus employees of the Department of Justice, these 250 
or so folks, in my view, are among the finest of all of the DOJ 
people. Their dedication and skill and kindness is really 
extraordinary, and what they have accomplished over the past 4 
years is a big reason why I am here today. It has been an honor 
and a privilege to serve them.
    I say that because my second point to you, members of this 
Committee, is that the Deputy Attorney General is entrusted to 
guard all of that. The Deputy Attorney General is entrusted 
with this extraordinary legacy that the Department of Justice 
has of guarding the rule of law, and I see it, if I'm 
confirmed, as my duty to enhance, to strengthen, to build what 
has been established so well over the decades.
    So, therefore, Mr. Chairman and members of the Committee, I 
pledge this to you. I pledge that if I am confirmed, that I 
will use all of my energies, by the grace of God, to act with 
integrity, to do what is right, and to be guided only by the 
law every day I have the opportunity and the privilege of 
serving as Deputy Attorney General, if I am confirmed.
    Thank you for your courtesy, Mr. Chairman.
    And I thank Senator Allen and Warner, by the way, for their 
kind introduction, and the President for the honor of being 
nominated to this very significant position.
    I welcome your questions to me.
    [The biographical information of Mr. McNulty follows:] 
    [GRAPHIC] [TIFF OMITTED] T1446.001
    
    [GRAPHIC] [TIFF OMITTED] T1446.002
    
    [GRAPHIC] [TIFF OMITTED] T1446.003
    
    [GRAPHIC] [TIFF OMITTED] T1446.004
    
    [GRAPHIC] [TIFF OMITTED] T1446.005
    
    [GRAPHIC] [TIFF OMITTED] T1446.006
    
    [GRAPHIC] [TIFF OMITTED] T1446.007
    
    [GRAPHIC] [TIFF OMITTED] T1446.008
    
    [GRAPHIC] [TIFF OMITTED] T1446.009
    
    [GRAPHIC] [TIFF OMITTED] T1446.010
    
    [GRAPHIC] [TIFF OMITTED] T1446.011
    
    [GRAPHIC] [TIFF OMITTED] T1446.012
    
    [GRAPHIC] [TIFF OMITTED] T1446.013
    
    [GRAPHIC] [TIFF OMITTED] T1446.014
    
    [GRAPHIC] [TIFF OMITTED] T1446.015
    
    [GRAPHIC] [TIFF OMITTED] T1446.016
    
    [GRAPHIC] [TIFF OMITTED] T1446.017
    
    [GRAPHIC] [TIFF OMITTED] T1446.018
    
    [GRAPHIC] [TIFF OMITTED] T1446.019
    
    [GRAPHIC] [TIFF OMITTED] T1446.020
    
    [GRAPHIC] [TIFF OMITTED] T1446.021
    
    [GRAPHIC] [TIFF OMITTED] T1446.022
    
    [GRAPHIC] [TIFF OMITTED] T1446.023
    
    [GRAPHIC] [TIFF OMITTED] T1446.024
    
    [GRAPHIC] [TIFF OMITTED] T1446.025
    
    [GRAPHIC] [TIFF OMITTED] T1446.026
    
    Chairman Specter. Thank you very much, Mr. McNulty. We will 
now proceed with our practice of 5-minute rounds for members.
    A key issue is our oversight authority over the Department 
of Justice. This is a subject which I took up in detail with 
the Attorney General. I sent you a letter summarizing the 
oversight authority of the Judiciary Committee as summarized in 
a CRS statement of the law, and I told you earlier this 
morning, when we talked briefly, that I would be asking you 
about it. And to quote some of the pertinent sections, the 
Congressional Research Authority cites the law as follows, 
quote: ``The Department of Justice has been consistently 
obliged to submit to Congressional oversight regardless of 
whether litigation is pending, so that Congress is not delayed 
unduly in investigating misfeasance, malfeasance or the 
maladministration in the Department of Justice or elsewhere.''
    This includes, according to this summary, quote, ``The 
testimony of subordinate Department of Justice employees such 
as line attorneys and FBI field agents, which was taken 
formally or informally, and included detailed testimony about 
specific instances of the Department's failure to prosecute 
alleged meritorious cases.'' And the Committees have been 
provided with, ``documents respecting open or closed cases that 
include prosecutorial memoranda, FBI investigative reports, 
summaries of FBI interviews, memoranda and correspondence 
prepared during the pendency of cases,'' and it goes on.
    I would like your specific agreement that that does 
represent the authority of this Committee on oversight of the 
Department of Justice.
    Mr. McNulty. You have my agreement.
    Chairman Specter. Thank you. I like your brevity almost as 
much as I like your agreement.
    We are having oversight hearings, as you know, on the 
presidential authority on electronic surveillance, and the 
Attorney General will be coming in on Monday to testify. I do 
not intend to get into those substantive matters with you 
because we will be hearing from the No. 1 man in the 
Department. And you do not speak for the Department at this 
time until--well, you are Acting Attorney General, Acting 
Deputy Attorney General, but I do seek your response on the 
question of access by the Committee to legal memoranda prepared 
by the Office of Legal Counsel or otherwise, your view as to 
the propriety of the Committee having access to that in order 
to more fully question the Attorney General?
    Mr. McNulty. Senator, I understand that that's an important 
question that's going to be faced by the Committee and the 
Department of Justice. As I've just responded to you a moment 
ago, I have a strong commitment to the role of oversight, and 
to making sure that this Committee has what it needs to fulfill 
its responsibility. I have probably the unusual experience, as 
Senator Leahy referred to briefly about my experience on the 
Judiciary Committee. I spent 12 years on Capitol Hill, and I 
spent a lot of years in oversight work. I have dealt with the 
Department of Justice on numerous occasions. I can't even think 
of all the times that I was working on situations where we had 
to get documents or deal with the Department, and we had to 
work through difficult issues. Sometimes we came up with 
accommodations where the chairman, Ranking Member looked at 
things, sometimes we were able to provide more access.
    I'm afraid that today, sitting here, though, I'm not able 
to give a response about the availability of certain documents 
in relation to this issue because I just haven't been involved 
with it. I became just recently aware of the fact of what this 
request is. I don't know what considerations already have 
occurred at the Department. I know the Department will be 
working with the Committee to figure out how to work through 
that challenge, but I can't provide specific information about 
what can be provided or can't be provided as we sit here today.
    There's a long history to this availability of OLC 
opinions, and I have to learn more about it myself, and I 
certainly have to consult with others at the Department of 
Justice about how that's going to be worked out.
    Chairman Specter. Mr. McNulty, moving on to another 
subject, on the prosecution of the civilians on the detainee 
issue, we would be interested, to the extent you can tell us, 
what the status is of those investigations and potential 
prosecutions.
    Mr. McNulty. Thank you, Mr. Chairman. Mr. Chairman, those 
cases were assigned to my office for investigation about 18 
months ago, as mentioned by Senator Kennedy. Deputy Attorney 
General Comey asked me to do it because he believed that my 
office had the experience and the aggressiveness to do that 
job. It was Deputy Attorney General's Comey's decision to ask 
me to do those cases. He had called upon my colleague, Pat 
Fitzgerald, to do a case. He had called upon David Kelley in 
New York to do a case. He called upon me to take on these 
cases.
    Now, there were 19 cases that have been referred to my 
office for investigation. The first thing I did was put 
together a team of the most experienced prosecutors the 
Department really has. There are decades of prosecutorial 
experience represented in the team I have working on this, 
career, longstanding, hard-charging prosecutors. And we took 
those referrals in whatever shape and condition they were in, 
and they were very thin in the sense of the information 
initially given to us, and we began to work.
    Now, as we've been proceeding on the course of these 
investigations--and they are ongoing investigations--there are 
a number of obstacles that we face in trying to come to the 
point of bringing criminal charges against individuals who have 
in any way been associated with an allegation of some form of 
abuse. The obstacles include jurisdiction. We have to deal 
with--we're dealing with civilians now, not military personnel. 
Military personnel are prosecuted under the Code of Military 
Justice. Civilians, who do conduct overseas, have to be 
prosecuted under the International Jurisdiction Statute that 
was established a few years ago, and that presents certain 
challenges in terms of bringing charges.
    We have issues of access to witnesses, victims. In some of 
our cases our victims can't be found. We have had real problems 
in getting access to the potential witnesses in the case. I 
sent a prosecutor to Baghdad for interviews, and he was outside 
the Green Zone for quite some time and interviewed over 15 
people, and we're trying to make progress in a particular case 
there. We've had to wait in some cases for the military to 
complete its work because our witnesses were tied up with the 
military side of the prosecution, and you can't have collateral 
prosecutions in certain circumstances. You have to wait until 
those witnesses have testified, and then they're available.
    So like any complex case, time does pass as you try to work 
through the problems, but I assure this Committee that we are 
still working hard on those cases, and it may very well be that 
in the not-too-distant future charges will be brought. We'll 
bring charges when we know we have the evidence necessary to 
succeed.
    Chairman Specter. Thank you, Mr. McNulty. My time has 
lapsed. I will just, without objection, place into the record 
the letter which I wrote to you on oversight authority, make it 
a part of the record.
    I am going to have to excuse myself at this point. Senator 
Hatch will be arriving shortly to preside. In the interim I 
have asked Senator Sessions if he would preside during my 
absence.
    Now I yield to our distinguished ranking member, Senator 
Leahy.
    Senator Leahy. Mr. Chairman, I would put into the record a 
letter from the Fraternal Order of Police, signed by Chuck 
Canterbury, addressed to you and me in favor of the nomination 
of Mr. McNulty.
    Chairman Specter. Without objection it will be made a part 
of the record.
    Senator Leahy. I know when you praised the Department of 
Justice--and I join you in the praise of the men and women who 
are there--you were referring to the civilian end of our 
Government. You were not in any way denigrating the military 
end; is that correct?
    Mr. McNulty. No, I think that the----
    Senator Leahy. I just did not want you to get caught later 
on.
    Mr. McNulty. I guess I am not familiar with all the ways 
you can get caught, but----
    Senator Leahy. Trust me, you will learn.
    [Laughter.]
    Senator Leahy. Let me just follow up a little bit on what 
Senator Specter was saying on these cases that have been 
referred to. The reason we ask, there were 20 allegations of 
detainee abuse. 19 of them went to you. One went to the Eastern 
District of North Carolina. They were able to obtain an 
indictment. Were you suggesting that your primary--I do not 
want to put words in your mouth--but are you suggesting the 
primary reason there have not been indictments yet is a 
jurisdictional one?
    Mr. McNulty. No. I just raised that as one of a number of 
factors that has come into play with some of the referrals.
    Senator Leahy. The reason I ask that, obviously, in North 
Carolina they felt that was not a problem. The military has 
been able to prosecute a number of these cases, have they not?
    Mr. McNulty. Right. And as I mentioned, we had to let them 
go first in some of our allegations.
    Senator Leahy. And in among the referrals include one case 
in which a detainee was killed in CIA custody only 45 minutes 
after interrogations. The CIA's Inspector General found a 
possibility of criminality. You have had that case for 18 
months. Anything you can tell us about the progress in that 
case?
    Mr. McNulty. It's an ongoing investigation. What's 
interesting about that case is that there were a number of Navy 
SEALs charged in the military context, and they were acquitted. 
So you see that sometimes in these cases it's very difficult, 
as I know you know, because of the nature of the evidence. In 
that particular case, those SEALs had custody over that 
individual prior to his delivery into the hands of anyone else.
    And on the case in North Carolina, that case was further 
along in investigation and preparation for being charged. It 
was charged almost immediately after the referrals were made 
because of the work that had been done on it.
    Senator Leahy. Do you think that these others will be 
coming to a conclusion sometime in the near future?
    Mr. McNulty. I think so. And to be candid with you, Senator 
Leahy, there may be declinations in some of the cases.
    Senator Leahy. I understand.
    Mr. McNulty. And there may be some charges in some of the 
cases.
    Senator Leahy. After 18 months, there are going to be 
declinations. In those cases, that decision should be made too.
    Mr. McNulty. That's right, Senator. We'll plow forward with 
all aggressiveness.
    Senator Leahy. Let me ask you this. There has been a lot in 
the press lately about the NSA domestic spying program. When 
did you first learn about it?
    Mr. McNulty. When the New York Times article came out.
    Senator Leahy. You did not know about it before then?
    Mr. McNulty. For the past 4 years I have been serving as 
the U.S. Attorney in Virginia. I haven't been involved in 
Department of Justice wide matters.
    Senator Leahy. After you learned about it, what did you do?
    Mr. McNulty. I became aware of the program. I am not in a--
read into that program, and so there is nothing more I can do 
in terms of action when I'm not a part of or read into the 
specific program itself.
    Senator Leahy. But if you were Deputy Attorney General you 
would be.
    Mr. McNulty. Possibly. I mean as Acting Deputy, I think it 
was determined, and rightly so, that it's not appropriate in an 
area that's so closely held.
    Senator Leahy. Did you see the Attorney General's 42-page 
white paper he released a couple weeks ago?
    Mr. McNulty. I did.
    Senator Leahy. Did you agree with everything in that paper?
    Mr. McNulty. I read the paper carefully, and I have to say 
that I found you arguments, the legal arguments that were being 
presented there, to be credible and compelling arguments.
    Senator Leahy. Did you find anything you disagree with?
    Mr. McNulty. I don't recall right now, Senator, of anything 
that I would cite as an area of disagreement. It's a general 
legal argument in that paper. And there may be some things that 
I found more compelling than others, but as an overall 
argument, that's the way I viewed it.
    Senator Leahy. I am going to give you a copy. If somebody 
could hand a copy of a letter that I and the other Democratic 
members of the Judiciary Committee sent to Attorney General 
Gonzales last week. We requested the contemporaneous legal 
opinions and other documents related to the NSA domestic spying 
program. Senator Specter has also raised some of the issues, 
and has given you a letter pointing out where such documents 
have been made available in investigations by appropriate 
committees in the past. If you are confirmed, will you release 
to Congress and appropriately cleared staff, and where 
appropriate to the public, the requested materials?
    Mr. McNulty. I can't make that commitment to you today, 
Senator. As I tried to explain to the Chairman, the decisions 
that have to be worked through in this request that I'm looking 
at--and I hadn't seen this before today, are challenging--and 
I'd have to consult with others at the Department of Justice as 
to precedence in the past and what can be released.
    Senator Leahy. Just one last question if I might, Mr. 
Chairman.
    Are you aware of instances in which information obtained 
through the domestic spying program was used in any manner in a 
criminal prosecution in the Eastern District of Virginia or any 
other district?
    Mr. McNulty. No, I'm not aware of that.
    Senator Leahy. Okay. Mr. Chairman.
    Senator Sessions [presiding]. Thank you, Senator Leahy.
    Mr. McNulty, it is a pleasure to see you. I have admired 
your work for a number of years. I think the experience you 
have had now as a United States Attorney will be particularly 
valuable to you in this position.
    Tell us briefly what the role of the Deputy Attorney 
General is in the vast Department of Justice. It includes far 
more than just line prosecutors in the Department of Justice. 
You have quite a good deal more to deal with. I also would note 
that--having been on this side of the aisle, on the 
congressional side as a top staff person--will that not give 
you some appreciation for legitimate demands of Congress on the 
Department of Justice to respond promptly and sufficiently to 
legitimate inquiries from the Congress?
    So I guess I will first ask you that question. Do you feel 
that your perspective, in being counsel in the House Judiciary 
Committee, would give you insight into legitimate needs of 
Congress, and does that make you more or less willing to be 
responsive?
    Mr. McNulty. I do think that experience is helpful in this 
process. I think, if nothing else, when you call me as Deputy 
Attorney General, if you confirm me, that I will have an 
immediate understanding of the process that you're going 
through and the responsibilities that this Committee and other 
committees have. I will understand and appreciate the 
importance of oversight.
    In my view the Department of Justice has to be held 
accountable in many different ways. We have to have a strong 
Inspector General. We have to have strong oversight by the 
Congress, including GAO, and we have whistleblowers that are a 
part of that oversight framework. I think all of those elements 
of oversight have to function well in order to hold Department 
of Justice accountable for its work, and we ought to be ready 
to be examined that way.
    And so it doesn't mean that some questions won't be 
difficult. They have been difficult for decades, and Senator 
Specter's letter cites a number of issues where there has been 
cooperation and agreement reached on oversight, but all those 
examples were preceded by lengthy discussions about how much 
should be available, sensitivity of the information, 
deliberative process and so forth, but accommodation was 
reached in each of those instances, and I think that's the long 
tradition of working together on this.
    Senator Sessions. I think Congress has a right to demand 
certain documents, and I think Congress has an obligation to 
recognize that the executive branch has the right to have 
internal discussions of matters that remain privileged to the 
Department of Justice or the President himself. My 
understanding of the attorney-client privilege--and you're 
attorneys for the executive branch--is that those documents 
have not been produced, that Democrat and Republican attorneys 
have repeatedly testified (that have served in the Department 
of Justice) that they should not be. And it is ultimately the 
documents you prepare--that the Deputy Attorneys General 
prepare, the Attorneys General, the Counsel to the President--
those documents are prepared as an attorney, are they not? And 
are those documents, your documents, or do they belong to the 
Government and to the Chief of the executive branch?
    Mr. McNulty. Right.
    Senator Sessions. And is that not the person that 
ultimately makes a decision on whether or not to release them?
    Mr. McNulty. That's right. Some documents that go to the 
very core of the deliberative process, that are sort of 
quintessential deliberative process work, requirements for 
candidacy are important. I appreciate your point about the 
policies in previous administrations, because I did my 
oversight work on the Judiciary Committee with the previous 
administration, and there were a number of documents that the 
Committee sought that we did not receive from the Department of 
Justice during the administration of President Clinton.
    Senator Sessions. You never received those documents from 
the Clinton administration.
    Mr. McNulty. No. And there were some instances where we had 
to accept either significant limitations or ``no,'' and that's 
never easy to accept. but we did get that answer on a number of 
occasions.
    Senator Sessions. It is just a complex issue, but there are 
some legitimate Executive concerns there that have been 
asserted by every President. Maybe a little later we can talk 
about the fact that you will be dealing, if you are confirmed 
as Deputy Attorney General, with many more issues than this. It 
is a huge supervisory management position that involves the 
Bureau of Prisons, the United States Attorneys, the Drug 
Enforcement Administration, the FBI, as well as many other 
agencies in the Department that is one of the most important in 
the country. I am glad that you have had this U.S. Attorney 
experience because it shows how the Department of Justice 
actually operates at the grass roots level.
    I believe Senator Kennedy would be next.
    Senator Kennedy. Thank you, Mr. Chairman. Good morning.
    Mr. McNulty, I am somewhat surprised to hear you say that 
these cases, these detainee cases came to you with a thin 
record. The case of Manadel al-Jamadi, who died in CIA custody 
at Abu Ghraib, was investigated extensively by the military, 
and the General Taguba report was 6,000 pages long. The Jones/
Fay report, which was the other--these are reports from the 
Armed Services Committee, of which I am a member. That report 
identifies two CIA employees involved. So what is the 
difficulty in building the case? Is the CIA cooperating and to 
what extent does it cooperate, first of all, and then what is 
the difficulty in building the case?
    Mr. McNulty. Senator, we're getting cooperation. I don't 
mean to be evasive on that one point, but I have certain 
classified information issues that I have to work with there, 
but we are getting fine cooperation from the agencies that are 
involved, that we're working with.
    When I made that point, Senator, what I was referring to is 
that often when you're a prosecutor you get a presentment of a 
case from an agency that is a notebook which lays out quite 
specifically the theory of prosecution, the evidence, and puts 
you in a position to draft an indictment rather soon after 
receiving the information. Referrals is a general term, and I 
just don't want anyone to think that referrals means it's the 
full presentment of the case ready to go to indictment. The 
reports you cited refer literally just to observations or facts 
that someone reporter. We have to take those observations or 
facts or letters and then build a case from that. We've gotten 
great cooperation in trying to do that. The obstacles are more 
the kinds of things you run into when you're doing a case on 
foreign soil.
    Senator Kennedy. Let me move on to the topic of Voting 
Rights enforcement, and I am just going to move through this 
quickly. Last August the Department granted approval for the 
new voter ID requirement in Georgia. This disproportionately 
affects African-Americans, Latinos, Native Americans. Voters 
were required to pay $35 to obtain a card. Those IDs were 
available at less than 60 locations in Georgia, which has 159 
counties. The Federal District Court stopped the law because 
the IDs functioned as a modern day poll tax. In reaching its 
conclusion, the Court wrote that it had great respect for the 
Georgia legislature but simply had more respect for the 
Constitution. Those are pretty strong words about a law the 
Department of Justice said did not violate minority voting 
rights. And then the conservative 11th Circuit Court of Appeals 
upheld the District Court's decisions.
    The news reports show that the career staff and Department 
opposed the law because it would violate civil rights--but they 
were overruled by political appointees. There is yet a similar 
situation with a unanimous staff recommendation against 
approving a redistricting plan in Texas. The Texas case is 
going to come up to the Supreme Court next month.
    I understand you were not supervising voting right cases 
when these staff recommendations were made. We are going to 
have a separate Civil Rights oversight hearing, as the Chairman 
has indicated. But if you are confirmed, you will be in the 
chain of command above the Civil Rights Division, so your 
position on the matter is important.
    Just last week, Georgia passed a new voter photo ID 
program, which the Department has the responsibility of 
reviewing. The issue is whether the law will actually make it 
harder for minorities to exercise their vote.
    Do we have your assurance that you will personally notify 
the Civil Rights Division leadership and the Voting Section 
that you expect a fair review of the new Georgia law, and that 
you will not permit politics to trump fair civil rights 
enforcement?
    Mr. McNulty. You have that assurance. Senator, let me just 
add, I feel very strongly that politics can never play a role 
in what the Department of Justice does, and the Civil Rights 
Division has to be--operate always in a fair and appropriate 
way under the rule of law because it's the vision that really 
seeks to guard opportunity for every American.
    I will point out that the section chief of that section is 
a career person, who has been the one signing off on those 
Georgia decisions.
    Senator Kennedy. But you will follow that?
    Mr. McNulty. Absolutely.
    Senator Kennedy. Let me just move quickly on to this issue 
as well. You are familiar with the role of the Honors Program 
in the Department's hiring practices. That has been changed, 
especially in the hiring of the Civil Rights Division, where 
career attorneys have been totally excluded from reviewing 
candidates. It is now done only by political appointees. That 
is a dramatic change from the past. The Honors Program was 
originally designed to get rid of political considerations in 
new hiring. So will you agree that political considerations 
should not have a role in who is named in career positions in 
the Department, and if you are confirmed, will you review the 
Honors Program?
    Mr. McNulty. I will.
    Senator Kennedy. And work with us to guarantee that the 
politics is not the controlling factor?
    Mr. McNulty. Absolutely, Senator. I looked into this 
briefly because I knew this was a concern. And we may have to 
check the facts that you have and I have and make sure we're on 
the same page.
    Senator Kennedy. Fine.
    Mr. McNulty. But I understand that a career employee and a 
political employee are both involved in every hiring decision 
that's made in the Honors Program. So that's my understanding 
of the current policy.
    Senator Kennedy. If you look it over, we can talk about it 
later.
    My time has expired. I will just take a second here. Just 
this morning we learned of a terrible tragedy in New Bedford, 
Massachusetts. Three people are now in the hospital after 
suffering brutal attacks. The suspect allegedly walked into a 
bar, asking if it was a gay bar. And then the suspect started 
attacking customers, swinging a hatchet, and then pulled out a 
gun and started shooting at everyone. So this really was a 
crime of hate, and such acts of violence represent, I believe, 
domestic terrorism.
    Senator Smith and I, and Senator Specter have been 
enormously interested in hate crimes. Will you work with us? We 
have a current hate crimes bill. We have passed others in the 
Senate. We have not been able to get it into law. But will you 
work with us in terms of hate crimes legislation generally? I 
cannot ask you now for a specific position on it, but I would 
like to ask for your assurance that you at least will work with 
us in terms of that subject matter. We may not come to the same 
decision, but I would like assurance at least you will work 
with us on this issue.
    Mr. McNulty. Right. I will work with you. I remember the 
issue--I haven't thought about it recently--but I remember the 
issue when I worked for the House Judiciary Committee, and I 
will be very prepared to work with you on your efforts to try 
to address the question.
    Senator Kennedy. Thank you.
    Thank you, Mr. Chairman. My time is up.
    Senator DeWine [presiding]. Mr. McNulty, good to see you.
    Mr. McNulty. Good to see you, Senator, thank you.
    Senator DeWine. You have a distinguished record. You and I 
first met each other in I think about 1983, right after I came 
to the House of Representatives. You were with the Legal 
Services Corporation. Shortly after that you went I think with 
Bill McCollum on the Crimes Subcommittee of the House. You and 
I worked on the Crime Bill. You went off to the Justice 
Department for a while, had a career there. And then you came 
back, and you and I worked together when you were again Chief 
Counsel on the House Crimes Subcommittee, and then your 
distinguished career in Virginia, some very famous cases. Now 
back at Justice Department, U.S. Attorney's Office. It was a 
very distinguished career.
    So anyway, it is good to see you back.
    Let me just ask you, Paul, a couple questions, one on 
asylum cases. As you probably know, in the past year several 
Federal Circuit Courts have openly criticized the Department's 
handling of immigration cases involving those who seek asylum 
in the United States. Some have criticized the decisions of 
immigration judges. Others have commented on the quality of 
appellate review conducted by the Bureau of Immigration Appeals 
in these cases. The issue, however, seems to stem from a 
decision made by DOJ in 2002 to streamline the appellate review 
process in immigration cases. Without question, this 
streamlining has made the difficult process of deciding 
hundreds of thousands of asylum claims each year more 
efficient. But some of us fear that it has also led to a number 
of meritorious asylum claims really slipping through the 
cracks.
    What is your thinking in this area? Do the current DOJ 
regulations strike, in your opinion, the proper balance between 
efficiency and individual justice, or do we need to reexamine 
these regulations to be certain that meritorious asylum claims 
do not slip through the cracks?
    Mr. McNulty. Well, I am familiar with the changes in part 
because the effort to expedite the immigration cases has also 
resulted in really an avalanche of cases in the circuit courts 
for review. And my office in the Eastern District of Virginia, 
like every U.S. Attorney's office in the country and every 
litigating unit or component of the Department of Justice, is 
now participating and working on briefs on those cases. So we 
all understand the volume.
    Just a week ago, Senator, Attorney General Gonzales asked 
my office and the Associate Attorney General's office to 
conduct a thorough review of the way the immigration courts are 
operating, the quality of the work that is being done, the 
efficiency and effectiveness, and whether or not we have struck 
that right balance.
    So we are currently going through a very large effort to 
review what is being done by immigration judges in these cases, 
these petitions. I would like to get the results of that, which 
should be rather soon because the Attorney General told us to 
get it done quickly, and talk to you about what we find at that 
point.
    Senator DeWine. Well, I would hope maybe you could come in 
with me or have someone come in and brief me and my staff on 
that because I have a concern about this. When you have the 
circuit court judges openly criticizing the Department's 
handling, I think that is a problem. We are picking it up, 
frankly, through my office and some of the horror stories that 
we are hearing, and I think it is a real problem.
    Mr. McNulty. I understand, and the concern----
    Senator DeWine. And the time line for that is what, do you 
think?
    Mr. McNulty. It is not a lengthy review. It is one that the 
Attorney General wants back quickly. So we have been at it now 
for about 3 weeks and I can't give you a specific date, but we 
are talking about just literally weeks of more work to do and 
not a long period of time.
    Senator DeWine. Let me ask you one more question. As United 
States Attorney for the Eastern District of Virginia, you, of 
course, have been involved in some of the most important anti-
terrorism cases in the country.
    Do you want to take a moment to give us some idea of what 
is working in this area and what, from your perspective, maybe 
is not working? Again, have we struck the right balance between 
fighting terrorism and protecting civil liberties, and are the 
tools that Congress has given our investigators and our 
prosecutors in the USA PATRIOT Act, in your opinion, actually 
working? From a practical standpoint, what would be the effect 
on anti-terrorism investigations if we do not reauthorize the 
PATRIOT Act?
    Mr. McNulty. I think there would be serious problems if the 
PATRIOT Act was not reauthorized. The provisions that sunset 
provide very significant tools. We all talked about the wall, 
and the concern we have as prosecutors is the chilling effect 
that a lack of reauthorization would have on the sharing of 
information.
    Some sharing has improved that may not be connected 
necessarily to the PATRIOT Act directly, but there is an 
important part of the sharing that is directly tied to the 
PATRIOT Act. And if it is not reauthorized, we will go back to 
that stovepiping that keeps prosecutors from knowing actually 
what is going on and being able to pursue important cases.
    Also, Senator, as far as other tools in the Act, they 
provide the kind of thing that is needed in the right moments 
when you are trying to use what is available to make a case. 
They are not necessarily used everyday, but they provide a 
solution to an important problem, whether it is delaying a 
notification in a search or whether it is seeking a certain set 
of records that wouldn't be available because of the national 
security concern with a grand jury subpoena.
    We made a lot of progress in 4 years. In my office, in 
prosecuting these cases, I think we have learned how to 
overcome major obstacles that historically we just hadn't 
confronted in prosecuting cases where evidence was all over the 
world. And I think that we are much stronger today as a 
Department in prosecuting international terrorism cases than we 
were before 9/11. We will continue to look at what we can do 
legislatively and practically to improve, but I think my 
assessment to you, Senator, is that we have made great progress 
in overcoming obstacles.
    Senator DeWine. Thank you very much.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. McNulty, and thank 
you for joining me in my office yesterday. It is good to see 
your family here.
    Mr. McNulty. Thank you.
    Senator Durbin. Mr. Chairman, I would say that if people on 
the Hill, including members of this Committee, understood the 
importance of the position that you seek, this room would be 
filled. It should be, because I think what we have seen with 
Mr. Comey, whom we both hold in high regard, is that during the 
course of his service in this same position, he was called on 
to make some extraordinarily important and difficult decisions.
    When you and I met yesterday, we talked about this 
compelling Newsweek article that attempts to describe Mr. 
Comey's experience at the Department of Justice in this 
position, and particularly the fact that he was, because of 
Attorney General Ashcroft's illness, drawn into an important 
responsibility of deciding whether to go forward with the 
domestic spying program which is going to be the subject of 
this Committee's hearing next week. The article indicates that 
he ran into some resistance for his position on this issue from 
Mr. David Addington, who is the chief of staff to Vice 
President Cheney.
    The reason I raise this is because you and I talked about 
it and I want to make sure it is laid out on the record here. 
There may come a moment, if you are approved by the Senate, 
where you are put in the same predicament, where you would be 
faced with making a critical decision relative to our rights 
and freedoms in America and face political pressure within the 
administration, as apparently Mr. Comey did from the office of 
the Vice President.
    My question to you in public session, as it was in my 
office yesterday, is whether you are prepared to resign the 
position if you found it to conflict with what you considered 
to be ethical or constitutional conduct.
    Mr. McNulty. Thank you, Senator, and I fully appreciate the 
significance of your question, and my answer to you today is 
the same as it was yesterday. I would never let a job come in 
the way of my integrity. If I felt that that was a necessary 
thing to do, I would certainly do it because, first and 
foremost, I have to do the right thing in this job everyday.
    I believe I have the standing as a result of more than two 
decades in this town, I have the confidence, I have the ability 
to assert myself that I might be persuasive to anyone I might 
come in contact with where I feel strongly about a position, 
and that I would prevail. But if that situation should arise as 
you framed it, then I would be prepared certainly to walk away 
from a job if it came to a question of integrity versus 
employment.
    Senator Durbin. And although I didn't raise it yesterday, I 
want to set out in the record, is there anything in your past 
service with the House Majority Leader relative to his legal 
problems concerning the K Street Project or Mr. Abramoff or 
anything--is there any aspect of this that you were involved in 
as a member of the staff?
    Mr. McNulty. Well, I didn't work for that Majority Leader. 
I worked for Congressman Dick Armey, the former Majority 
Leader.
    Senator Durbin. I see.
    Mr. McNulty. I served as the general counsel and I am 
unaware of any issue that has ever been identified that has 
been associated with my service to him in that way.
    Senator Durbin. So there is nothing in current 
investigation that relates to your service at all in the House?
    Mr. McNulty. No, sir. I am unaware of anything like that.
    Senator Durbin. Thank you.
    Let me ask you specifically about an issue raised earlier. 
Senator Leahy referred to the letter which I received relative 
to the referrals by Mr. Comey for detainee abuse cases to the 
office of the U.S. Attorney in the Eastern District of 
Virginia.
    I asked you yesterday if you agreed with the President's 
statement that no American could legally engage in torture, 
cruel, inhumane or degrading treatment. Do you agree with that 
statement?
    Mr. McNulty. Yes. As I understand it, that is the law of 
the land.
    Senator Durbin. And so if anyone in the administration 
suggested that the President had the authority to authorize 
torture, would you come to the conclusion he does not?
    Mr. McNulty. Right. As I understand it, the McCain 
amendment has addressed this very subject we are talking about 
and the administration has expressed its full support for the 
McCain amendment.
    Senator Durbin. And so that would be your position as well?
    Mr. McNulty. Correct.
    Senator Durbin. All right. So, if confirmed, you would not 
be advising the administration that they have the authority to 
ignore what is the clear statement in the McCain law?
    Mr. McNulty. No, Senator, I can't anticipate that--I 
wouldn't anticipate that situation.
    Senator Durbin. I see my time is up, so I will defer to my 
colleague, Senator Schumer.
    Senator DeWine. Senator Schumer.
    Senator Schumer. If Senator Durbin, with your permission, 
Mr. Chairman, wants to finish his line of questioning, I think 
I would end up going beyond the 5 minutes. It is better to have 
him finish his and then I finish mine, if that is okay with 
you, Mr. Chairman.
    Senator DeWine. Senator Durbin.
    Senator Durbin. Okay, thank you. I thank you my colleague 
from New York.
    So as you described it to me yesterday, the cases that have 
been referred to the Eastern District of Virginia U.S. 
Attorney's office--some 17 pending cases, if I am not mistaken?
    Mr. McNulty. That is right, minus the two we have declined, 
so we are down to 17.
    Senator Durbin. Seventeen pending cases involve, as you 
described it, some cases that came in with a thin file, limited 
information, often involving witnesses and victims who were 
overseas, some of which are now being considered in other 
courts, such as military courts. And you said to me that was 
the reason why there hasn't been more activity. Now, don't let 
me put words in your mouth.
    Mr. McNulty. Well, I wasn't saying there hasn't been more 
activity. There has been a lot of activity. We have worked very 
hard on this. What I was trying to describe to you is something 
that I am sure in the vast majority of prosecutions people 
confront, which are the reasons why you can't move from a 
referral on Monday to an indictment on Thursday. You have to 
have the work done to succeed in the case.
    All of the witnesses--let me qualify that--many of the 
witnesses, if not most of the witnesses, are overseas, and the 
victims, as well, and so forth. Those are just two of several 
factors that make the investigations difficult, not impossible, 
but just difficult.
    Senator Durbin. I think that is a reasonable explanation, 
and when I was asked by the press yesterday, that is exactly 
what I said. I hope there is some timely determination as to 
whether they are going forward for prosecution, whatever might 
be the fate of that office and the next office-holder.
    Mr. McNulty. Yes.
    Senator Durbin. One last question. You have been involved 
in some terrorism cases. Have any of the defendants in these 
cases been subject to this NSA surveillance, this domestic 
spying program which is now going to be considered by this 
Committee next week?
    Mr. McNulty. I don't know the answer to that question. At 
least two of the defendants in cases that my office has 
prosecuted have filed motions to that effect, but not based 
upon any information available to them.
    Senator Durbin. So you have no knowledge that any defendant 
has been subject to this surveillance?
    Mr. McNulty. I have no knowledge of that.
    Chairman Specter. Okay. Thank you very much, Mr. McNulty.
    Senator DeWine. Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman, and I want to 
welcome Paul McNulty and his family, his wife, his daughters.
    My condolences on your loss last week.
    Mr. McNulty. Thank you.
    Senator Schumer. Mr. Chairman, it is no secret that Paul 
McNulty and I go way back. One of my proudest moments as a 
Congressman--I served 18 years in the House--was putting 
together the crime bill, which had a little motto: Tough on 
Punishment, Smart on Prevention. It got a majority of the Black 
Caucus and close to a majority of the Republican members of the 
House to vote for it as it went through.
    I would say the staff member I worked most closely on with 
that legislation was Paul McNulty, who I believe was probably 
minority counsel at that point?
    Mr. McNulty. At different times, yes, sir.
    Senator Schumer. Yes, and I can tell my colleagues that 
Paul is not only extremely bright and hard-working and 
diligent, but a man of integrity and his word is good, and I 
appreciate that.
    So I guess I would say here that it is no secret that most 
of us on this side of the aisle have had serious differences 
with the Justice Department on a whole range of issues over the 
last 4 years. I am glad they chose you, as opposed to somebody 
else.
    Having said that, another one of your qualities which I 
respect is loyalty, and I worry that in this Justice Department 
two very fine qualities of integrity and loyalty are going to 
cause you some sleepless nights. So my questions are all in 
that sort of general vein, and I think it is my obligation to 
bring them out, as much respect as I have for you.
    I think that the Justice Department in the last 4 years has 
become more political than I have seen it in all the years I 
have been in Washington. Some of the cases at the Department 
proceed with complete professionalism, but others seem to be 
saturated with politics. The Justice Department should not be a 
den of ideology.
    My colleague, Dick Durbin, mentioned Jim Comey, and he was, 
like you, a consummate professional, forthright, true to the 
law, guided by what he thought was right. And I am sure you 
have read some of the newspaper and magazine stories. There has 
been at least speculation--Comey would be too much of a 
professional to comment on this--that he left because loyalty 
demanded too much. And there is talk that other people left the 
same way--Mr. Goldsmith, who was head of the Office of Legal 
Counsel, and some others. Again, I make it clear neither of 
them has said anything to that effect. These were articles I 
saw most recently, one in Newsweek.
    The job, in my judgment, of Attorney General or Deputy 
Attorney General is different than that of just about any other 
Cabinet position. Just about every other one, you are supposed 
to follow the President, period. But the Justice Department has 
an extra halo, if you will, which is it is the law enforcement 
agency of the country, and in a nation of laws, by definition, 
you don't always just follow.
    So one area I have concern in is the investigation of Jack 
Abramoff. This is a political issue, by definition. Names of 
politicians have been involved, and thus far I think the Public 
Integrity Section has pursued the case appropriately. But I 
worry when the investigation turns to Government officials, 
elected officials, and particularly, if it should occur, moves 
in the direction of some people who have a whole lot of power 
and a whole lot of connections with this administration.
    That is why I believe that given the ties between Mr. 
Abramoff and senior Government officials, this is a place where 
a special counsel is justified and necessary. We don't have an 
independent counsel law anymore. That was sort of knocked out, 
I think, in a bipartisan way. But a special counsel gives some 
distance, and Patrick Fitzgerald is an indication of that. 
Whether people like or don't like what he has done, no one has 
debated that he has free rein, and that is why whatever he does 
I am going to be happy with. I have faith in his integrity. I 
have faith in the structure that was set up.
    So here we have Abramoff with ties to the Republican 
leadership in Congress, certain ties to the White House itself. 
Who knows how deep? We are trying to figure that out.
    Second, the rules, DOJ's own regulations. The Attorney 
General must appoint a special counsel when a criminal 
investigation would present a conflict of interest and it would 
serve the public interest to appoint a special prosecutor. And 
now you have the added complication just in the last week or so 
that the career prosecutor in charge of the investigation, Noel 
Hillman, has been nominated to be a judge on the Third Circuit.
    So while this cauldron is bubbling, there is going to be a 
new appointment there, and even if that appointment is made 
totally, totally on the merits, there is going to be an 
appearance that you can't avoid, and couldn't avoid in any 
administration. This is not aspersions on this; this is just 
the facts of the matter.
    Senator DeWine. Senator Schumer, in the spirit of 
bipartisanship to show you that bipartisanship reigns in this 
Committee, I am going to turn the gavel over to you at this 
point.
    Senator Schumer. Well, thank you, thank you.
    Senator DeWine. I have another engagement that I am late 
for.
    Senator Schumer. No problem. I will just ask my questions 
and then conclude the hearing.
    Senator DeWine. Well, you are doing so well here that I 
will just let you continue.
    Senator Schumer. Thank you. Thank you, Mr. Chairman.
    Senator DeWine. If I could just say again, Paul, we are 
delighted at the President's nomination.
    Mr. McNulty. Thank you for your support.
    Senator DeWine. We look forward to working with you.
    Mr. McNulty. I certainly look forward to that.
    Senator DeWine. We are glad to see your family here today, 
too.
    Mr. McNulty. Thank you.
    Senator DeWine. Thank you.
    Senator Schumer. Thanks, Mr. Chairman.
    Senator DeWine. Thank you.
    Senator Schumer [presiding]. I would just say one other 
thing that sort of again leads to some concerns. Frederick 
Black was the acting U.S. Attorney in Guam and the Marianas and 
was removed while he was investigating Mr. Abramoff, again, 
some allege because he was investigating Mr. Abramoff, and even 
that Mr. Abramoff had a hand in removing him.
    So I guess my question to you is, given all these 
circumstances and the lack of public confidence that exists 
today, would you support the appointment of a special--oh, one 
other thing I should say is 35 of us in the Senate, all 
Democrats, are sending a letter asking that a special counsel 
be appointed today.
    So I would ask you what is your view of a special counsel 
in this case. Is it needed? What are the criteria you will use? 
I had asked the same question of Mr. Comey when he was sitting 
in your chair and he basically--well, as you saw then in the 
Plame case, did appoint a special counsel. So just give me some 
of your thoughts here.
    Mr. McNulty. Well, first, let me say, Senator, how much I 
appreciate your kindness to me. In this town, which can be a 
very rough place, the fact that you would remember the time we 
did spend together working and credit that toward me is 
something that I will always appreciate. I think it speaks a 
lot of who you are as a person and I appreciate it.
    Senator Schumer. Well, more to who you are. You are 
somebody I greatly respect.
    Mr. McNulty. Well, thank you.
    Second, when you talk about loyalty and integrity, loyalty 
is a good thing. I have benefitted from loyalty in my career 
and I have benefitted from loyalty in my life. I have friends 
here today who are loyal to me and that is nice, but loyalty 
and integrity aren't equals. Integrity trumps loyalty. Values 
have some hierarchical structure to them and when it comes to 
doing the right thing, you have to be willing to do that even 
to the people--if you are an enforcement person, even to people 
that you might have some knowledge of or relationship with.
    But on the question of the special counsel generally, I 
think it is an important tool in very limited ways. I think it 
does create that sense of public confidence. Public confidence 
is huge when it comes to the Department having the kind of 
standing that I described in my opening statement, and that is 
why from time to time it makes some sense.
    I do believe that the prosecutors working on this 
particular investigation are really thoroughgoing 
professionals, all career, and it has a lot of resources as far 
as the work that is being done. I will commit to you that I 
will certainly take your recommendation seriously and look at 
the matter and, if I am confirmed, give it every possible 
consideration for what is the appropriate thing to do. And I 
will consult with you as I do that so you know where I am 
coming from.
    I like to see the career people do their jobs without any 
interference, and I believe they put in the time and the effort 
and that they are in the place to make good judgments. And so 
with that only bias that I have toward the way in which the 
career people have demonstrated a record of integrity, I will 
give your proposal consideration.
    Senator Schumer. Well, I appreciate that very much, and you 
did say, which I think is very important, that this 
investigation will get whatever resources are necessary. They 
won't be hamstrung for a lack of----
    Mr. McNulty. No. It already has a lot of resources and 
anything they need to----
    Senator Schumer. Up to now, I don't have any complaints 
from my knowledge, limited as it should be, because it is--
well, it is somewhat public because there have been articles 
about it, but it is private.
    The problem I worry about is not the career prosecutors in 
the Public Integrity Section, but it is standard procedure in 
the Public Integrity Section, should the investigation turn to 
indict some high-level political figure, or even make that 
person a target--move the grand jury in a different direction 
is a little different--that often it goes beyond the Public 
Integrity Section and beyond the career prosecutors. That is my 
worry.
    Now, how do we address that type of--and that is standard 
procedure in the Justice Department and I am not here at the 
moment to quarrel with that. But in this sensitive situation, 
how do you deal with that? You will admit there will be 
decisions, not every decision, but some decisions made at a 
higher level than the Public Integrity Section, should this 
investigation find serious wrongdoing among certain people. 
Isn't that fair to say?
    Mr. McNulty. Sure, absolutely. I have had the experience of 
being around attorneys general and deputy attorneys general 
over the course of my career and I have never, ever heard a 
conversation about political considerations when it comes to 
charging. There is a culture at the Department of Justice that 
is blind to that and just looks at the facts and the law and 
tries to move forward.
    And there is a structure at the Department of Justice that 
is probably, I think we would both agree, a good thing, which 
is that there is political leadership that is accountable, that 
changes with elections. And they do have, by the very design of 
our Founders, a responsibility for administering the law.
    In the current structure of special counsel, it is not like 
an independent counsel was under the statute where you have 
someone who actually has this charging authority that exists 
outside of the Department. Jim Comey faced the question with 
appointing Pat Fitzgerald. Pat Fitzgerald reported to him. He 
was a political appointee.
    Senator Schumer. Right.
    Mr. McNulty. And so you have to work through some of those 
questions that even with a special counsel, ultimately if one 
is picked, that person would report to me, unless I am recused, 
then report to somebody else.
    Senator Schumer. So if whoever is the new prosecutor brings 
something to you, you would not try to overrule it on any kind 
of political grounds, no matter----
    Mr. McNulty. Absolutely not.
    Senator Schumer. Great. Second, I guess what you are saying 
here is you will look at the issue of a special counsel 
seriously. You don't foreclose ruling it out right now at all?
    Mr. McNulty. No, Senator, I don't.
    Senator Schumer. Thank you. The next questions are related 
not to the special counsel, but since 2001 I have talked and my 
staff has talked to a good number of career people in the 
Justice Department who are very frustrated with what they would 
call the politicization of some parts of the Justice 
Department--I am not talking about shifts in policy here. 
Obviously, that is the President's prerogative. He won the 
election and my party lost--but rather where political 
appointees routinely overrule experience and expertise of 
dedicated staff. If they believe it is on all fours, not even 
equivocal, that the law requires one thing, they are overruled 
in a different direction. They are removed from current posts 
and given less desirable assignments.
    The hiring process is taken over by political appointees 
for appointments further down the chain without input from 
career managers, where a highly experienced, talented and 
rather long-term workforce is purged. And all too often, who 
pops up in their place is someone with less experience, but far 
more conservative ideological credentials or political 
connections.
    An example: Last June, political appointees overruled 
career attorneys on the tobacco litigation team and ordered 
them to ask one of their witnesses to downplay testimony that 
was damaging to the tobacco industry, and then ordered them to 
dramatically reduce their request for civil penalties by 
billions of dollars. The veteran career attorney who had led 
the case suddenly and inexplicably withdraw from the litigation 
amid speculation she was driven out.
    In August, Lawrence Greenfield, the head of the Bureau of 
Justice Statistics, was asked to resign and was later demoted 
after he objected to a White House order that he delete 
references to racial disparities in news releases prepared to 
announce a study on racial profiling.
    The one that I find most disturbing is the pattern in the 
Civil Rights Division, where some of the most egregious and 
appalling examples have occurred. The front page of the 
Washington Post said that political appointees have overruled 
experienced career attorney recommendations to deny pre-
clearance to voting changes in Georgia and Texas; that the 
attorneys determined after thorough, non-political legal 
analysis that it would have a discriminatory effect on minority 
voters.
    If those political appointees or people in the White House 
thought that the Voting Rights Act, as it is, goes too far, 
they had every right to try and change the law, come to us and 
change the law, but to veto cases or to change the way cases 
are being done in compliance with the law. Experienced 
attorneys are departing this division at an alarming and 
unprecedented rate, and many who choose to remain get assigned 
to less desirable posts. They are ordered to work on 
deportation cases rather than civil rights cases.
    So again, with complete respect for you and who you are, 
but realizing it is a tough world, how can you assure us that 
you will deal with these kinds of--if they are as I described, 
and I don't know if you have looked into any of them in your 
acting capacity--how you will deal with them. I don't think you 
would deny that at least out there in the buzz, there is a view 
that this Justice Department in certain areas, particularly 
civil rights, has behaved more politically.
    Mr. McNulty. I am aware, Senator, of that buzz, and in the 
3 months that I have been the Acting Deputy I have become more 
familiar with some of the issues that you raise here.
    Perhaps the best answer I could give you is as a general 
matter I was enjoying my life as a U.S. Attorney and really 
finding that to be the best job I have ever had. And when I was 
given the opportunity to move to the Department of Justice to 
serve as the Deputy Attorney General, the thing that primarily 
motivated me to take it was not fame and fortune by any means, 
but rather the fact that I have a great regard for the 
Department of Justice as an institution.
    And I think we are talking about over 100,000 people here, 
and the need to manage the place well is critical, and to see 
that people are treated well. And so if I am confirmed, I 
expect as the Deputy Attorney General to hold everybody 
accountable for their conduct in relation to how we deal with 
career people and how we respect the work that is being done by 
everybody in the Department, to avoid the appearance of 
politics coming into what we do, to follow up on things that I 
read about or hear about and to get to the bottom of it.
    That is about the best I can say to you with regard to this 
sort of list of things that you are talking about, that if they 
come up under my watch, I will address them. And if somebody 
calls me and says I heard about this, you can have the 
confidence that I will look into it and get back to you.
    Senator Schumer. One thing I would ask you to address, if 
you are confirmed, is would you be willing to look into what is 
going on in the Civil Rights Division and report back in a way 
you feel appropriate to me, to the Committee, to the Chairman? 
I think that does need some looking into.
    Mr. McNulty. Well, I understand. I have talked to Wan Kim, 
the new Assistant Attorney General. I believe he is a very good 
man who has a real commitment to making the Civil Rights 
Division everything it can be and it should be. The work is 
very important. As you say, sometimes there are policy issues 
that come up that have to be resolved.
    On this question of voting rights, I am aware that the 
section chief is the person under the guidelines who is 
responsible for the pre-clearance authority. And so when you 
see pre-clearance, you know that a career person has made that 
decision. I think that sometimes gets lost in the process, but 
nevertheless the concern you express is something that I will 
take seriously. And I will look at the Civil Rights Division 
and make sure that it is functioning in a way that has 
everyone's confidence that it is doing its job.
    Senator Schumer. What I would like to do is send you just a 
letter or something asking that you look into certain things in 
there. Would you be willing to just get back to me once you are 
confirmed?
    Mr. McNulty. That sounds fine.
    Senator Schumer. I just want to let you know, Paul, that I 
am proud of who you have been and you have been a wonderful 
public servant. I have real concerns, as you know, but I have 
faith in you. I had faith in Jim Comey and I thought he did the 
right job at a difficult. I am prepared to support your 
nomination.
    Mr. McNulty. Thank you very much.
    Senator Schumer. We are going to leave the record open for 
written questions for 1 week and the record will close on 
February 9 at 5 p.m.
    The hearing comes to a close, and again to the McNulty 
family--my brother-in-law is a McNulty, as well, but we are to 
related. That has nothing to do with this today.
    [Laughter.]
    Senator Schumer. The hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T1446.027

[GRAPHIC] [TIFF OMITTED] T1446.028

[GRAPHIC] [TIFF OMITTED] T1446.029

[GRAPHIC] [TIFF OMITTED] T1446.030

[GRAPHIC] [TIFF OMITTED] T1446.031

[GRAPHIC] [TIFF OMITTED] T1446.032

[GRAPHIC] [TIFF OMITTED] T1446.033

[GRAPHIC] [TIFF OMITTED] T1446.034

[GRAPHIC] [TIFF OMITTED] T1446.035

[GRAPHIC] [TIFF OMITTED] T1446.036

[GRAPHIC] [TIFF OMITTED] T1446.037

[GRAPHIC] [TIFF OMITTED] T1446.038

[GRAPHIC] [TIFF OMITTED] T1446.039

[GRAPHIC] [TIFF OMITTED] T1446.040

[GRAPHIC] [TIFF OMITTED] T1446.041

[GRAPHIC] [TIFF OMITTED] T1446.042

[GRAPHIC] [TIFF OMITTED] T1446.043

[GRAPHIC] [TIFF OMITTED] T1446.044

[GRAPHIC] [TIFF OMITTED] T1446.045

[GRAPHIC] [TIFF OMITTED] T1446.046

[GRAPHIC] [TIFF OMITTED] T1446.047

[GRAPHIC] [TIFF OMITTED] T1446.048

[GRAPHIC] [TIFF OMITTED] T1446.049

[GRAPHIC] [TIFF OMITTED] T1446.050

[GRAPHIC] [TIFF OMITTED] T1446.051

[GRAPHIC] [TIFF OMITTED] T1446.052

[GRAPHIC] [TIFF OMITTED] T1446.053

[GRAPHIC] [TIFF OMITTED] T1446.054

[GRAPHIC] [TIFF OMITTED] T1446.055

[GRAPHIC] [TIFF OMITTED] T1446.056

[GRAPHIC] [TIFF OMITTED] T1446.057

[GRAPHIC] [TIFF OMITTED] T1446.058

[GRAPHIC] [TIFF OMITTED] T1446.059

[GRAPHIC] [TIFF OMITTED] T1446.060

[GRAPHIC] [TIFF OMITTED] T1446.061

[GRAPHIC] [TIFF OMITTED] T1446.062

[GRAPHIC] [TIFF OMITTED] T1446.063

[GRAPHIC] [TIFF OMITTED] T1446.064

[GRAPHIC] [TIFF OMITTED] T1446.065

[GRAPHIC] [TIFF OMITTED] T1446.066

[GRAPHIC] [TIFF OMITTED] T1446.067

[GRAPHIC] [TIFF OMITTED] T1446.068

[GRAPHIC] [TIFF OMITTED] T1446.069

[GRAPHIC] [TIFF OMITTED] T1446.070

[GRAPHIC] [TIFF OMITTED] T1446.071

[GRAPHIC] [TIFF OMITTED] T1446.072

[GRAPHIC] [TIFF OMITTED] T1446.073

[GRAPHIC] [TIFF OMITTED] T1446.074

[GRAPHIC] [TIFF OMITTED] T1446.075

[GRAPHIC] [TIFF OMITTED] T1446.076

[GRAPHIC] [TIFF OMITTED] T1446.077

[GRAPHIC] [TIFF OMITTED] T1446.078

[GRAPHIC] [TIFF OMITTED] T1446.079

[GRAPHIC] [TIFF OMITTED] T1446.080

[GRAPHIC] [TIFF OMITTED] T1446.081

[GRAPHIC] [TIFF OMITTED] T1446.082

[GRAPHIC] [TIFF OMITTED] T1446.083

[GRAPHIC] [TIFF OMITTED] T1446.084

[GRAPHIC] [TIFF OMITTED] T1446.085

[GRAPHIC] [TIFF OMITTED] T1446.086

[GRAPHIC] [TIFF OMITTED] T1446.087

[GRAPHIC] [TIFF OMITTED] T1446.088

[GRAPHIC] [TIFF OMITTED] T1446.089

[GRAPHIC] [TIFF OMITTED] T1446.090

                                 <all>

</pre></body></html>
